 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




                        United States
         Patent and Trademark Office

USPTO’s Move to Alexandria, Virginia,
   is Ahead of Schedule, But Some Key
           Issues Need to Be Resolved
    Final Inspection Report No. IPE-16268/September 2004




            PUBLIC RELEASE




            Office of Inspections and Program Evaluations

                                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY ..............................................................................................................i

BACKGROUND ............................................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................................ 3

OBSERVATIONS AND CONCLUSIONS ................................................................................... 4

I. 	 PTO Has Provided Adequate Project Management and Financial Oversight of the 

     Carlyle Construction Project, But Additional Costs Have Occurred........................................ 4


II. PTO Recently Completed Plans for Its Final Moves to Alexandria, But Space Planning 

    for Future Growth Is Incomplete ............................................................................................ 10


RECOMMENDATIONS.............................................................................................................. 14

APPENDICES .............................................................................................................................. 15

          APPENDIX 1. Key Milestones for PTO’s Move from Crystal City to Alexandria ......... 15

          APPENDIX 2. Agency Response to Draft Report............................................................ 16

U.S. Department of Commerce                                                             Final Report IPE-16268

Office of Inspector General                                                                    September 2004



                                         EXECUTIVE SUMMARY


On December 1, 2003, the United States Patent and Trademark Office (PTO) began its planned
move of personnel and equipment from 18 buildings in Crystal City, Virginia, to 5 newly
constructed buildings in Alexandria, Virginia. When the move is completed in 2005, PTO will
have relocated approximately 7,350 employees and contractors to the new site—the culmination
of a long and rigorous process to replace the 33 leases the General Services Administration
(GSA) carries for it on the Crystal City facilities, with a single comprehensive lease agreement
and a modern, consolidated campus to enhance operational efficiency. PTO expects the
consolidation will save approximately $72.4 million over 20 years compared to the costs of its
current buildings; improve work processes, security, and employee amenities; and maximize
energy conservation. The complex is being built under a GSA contract with a private
developer—LCOR Alexandria, L.L.C.—and PTO will occupy the space under a 20- year
operating lease GSA signed with LCOR. The Office of Inspector General evaluated PTO efforts
thus far to monitor the construction project and prepare for the transition to the complex. Our
specific findings are as follows:

PTO Has Provided Adequate Project Management and Financial Oversight of the Carlyle
Construction Project, But Additional Costs Have Occurred. PTO and GSA are providing
adequate project management and financial oversight of the Carlyle lease/construction project.
While the project’s overall costs have increased from the 1995 budget of $223 million1 to $251.5
million,2 we note that most of this increase was due to project delays related to matters beyond
PTO’s control and new requirements, such as information technology changes, building redesign
to comply with the City of Alexandria’s requirement s, and security upgrades. To help finance
the cost increases, the agency obtained an additional $9.93 million in its above standard build-out
allowance from GSA in August 2004, which will be amortized over 20 years.

On September 20, 2004, PTO also reached an agreement with GSA to pay it $3.3 million to
settle a controversy between the two agencies regarding their financial obligations for project
rent. This amount is based on the lost Crystal City rent that GSA had expected to collect from
PTO had the Alexandria buildings been delivered on schedule instead of being completed and
accepted ahead of schedule. In addition, as of September 30, 2004, the standard occupancy
agreement between GSA and PTO, documenting the financial and other terms and conditions for
occupying the Carlyle space, has not been completed. We are recommending that PTO reach an
agreement with GSA and sign an occupancy agreement as soon as possib le. (See page 4.)

PTO Recently Completed Plans for Its Final Moves to Alexandria, But Space Planning for
Future Growth Is Incomplete. PTO recently moved 2,093 employees to the first two
completed buildings. The agency anticipates moving 5,257 workers into the remaining three
buildings, and the townhouse offices leased by PTO that front the parking garages, in late 2004

1
  The original project budget of $223 million, created in 1995, includes $88 million in standard building costs 

amortized in PTO’s rent plus $135 million of PTO costs.

2
  Current estimated project costs of $251.5 million includes $98 million in standard building costs amortized in 

PTO’s rent plus $153.5 million of PTO costs. 




                                                          i
U.S. Department of Commerce                                             Final Report IPE-16268
Office of Inspector General                                                    September 2004


and early 2005. At that time, PTO will occupy all the leased space at the Carlyle site. Therefore,
PTO must find space for 100 current employees whose leases in Crystal City will expire in fiscal
year 2005 and 650 new employees it anticipates hiring in fiscal year 2006, assuming its 2003 Fee
Modernization Bill is passed by Congress. We are recommending that PTO determine its ne eds
and develop the appropriate Program(s) of Requirements for additional space requirements for
employees and contractors that will not be accommodated at the space already leased at the
Carlyle site. (See page 10.)



PTO concurred with our two recommendations, agreeing to proceed to finalize an occupancy
agreement with GSA and to complete the Program(s) of Requirements to accommodate PTO’s
expected future staff growth.




                                                ii
 U.S. Department of Commerce                                                              Final Report IPE-16268

 Office of Inspector General                                                                     September 2004



                                                  BACKGROUND


On December 1, 2003, the Patent and Trademark Office began its planned move of personnel and
equipment from 18 buildings in Crystal City, Virginia, to 5 buildings in Alexandria, Virginia (see
figure 1). When the move is completed in 2005, PTO will have relocated approximately 7,350
employees and contractors to its new site—the culmination of a long and rigorous process to
replace the 33 leases the General Services Administration (GSA) carries for the agency on the
Crystal City facilities with a single comprehensive lease and a modern, consolidated campus with
enhanced office arrangements. PTO expects the consolidation will save approximately $72.4
million over 20 years, compared to the costs of its current buildings; improve work processes,
security, and employee amenities; and maximize energy conservation.

                               Figure 1: Artist’s rendering of completed PTO site




                             PTO’s five-building complex in Alexandria, Virginia, clockwise
                             from left part of picture: Remsen, Jefferson, Madison, Knox, and
                             Randolph.3 Source: PTO

PTO has leased space in Crystal City since the 1960s, but began exploring relocation options with
GSA in 1989 in anticipation of growing staff and space requirements (see appendix for the
chronology of events on PTO’s relocation). Between 1991 and 1995, PTO, the Department of
Commerce, GSA, and the Office of Management and Budget (OMB) evaluated three options to
replace PTO’s existing leases: direct construction by GSA for PTO, a capital lease,4 or an
operating lease.5 OMB ultimately approved the operating lease option, and in May 1995,

 3
   Remsen—named for Henry Remsen, Jr., Chief Clerk of the first Patent Board; Jefferson—named for Thomas
 Jefferson, third President and one of the three original members of the first Patent Board; Madison—named for
 James Madis on, the fourth President; Randolph—named for Edmond Randolph, Attorney General under George
 Washington, and a member of the first Patent Board; and Knox—named for Henry Knox, Secretary of War under
 George Washington, and a member of the first Patent Board.
 4
   A capital lease has one or more of the following features: (1) the lessee has the option to purchase the property for
 less than fair market value, (2) ownership of the property is transferred to the lessee at the end of the lease term, (3)
 the net present value of the lease payments exceeds 90 percent of the fair market value of the property, and/or (4) the
 lease term is greater than 75 percent of the property’s estimated economic life.
 5
   An operating lease allows the lessee to only use property or equipment for a specified period of time and amount of
 rent.



                                                            1

 U.S. Department of Commerce                                                             Final Report IPE-16268

 Office of Inspector General                                                                    September 2004



authorized GSA to transmit a prospectus 6 for an operating lease to the House and Senate
Environment and Public Works Committees.

The committees approved a competitively procured 20- year operating lease in October and
November 1995 for approximately 2 million square feet of space. In June 1999, via a competitive
process, GSA selected the Carlyle7 site in Alexandria as the location for PTO’s new facilities and
awarded a lease contract to LCOR Alexandria, L.L.C. However, from 1997-2000, PTO’s current
landlord filed protests with the General Accounting Office (GAO),8 the District Court of Virginia,
the District Court of the District of Columbia, and the U.S. Court of Appeals for both the 4th and
District of Columbia Circuits, which delayed PTO’s plans to build the new facility. Those appeals
were denied, and in June 2000, GSA signed a 20-year operating lease with LCOR. Table 1
compares PTO leased space in Crystal City with its new space in Alexandria.

Table 1: PTO Leased Space in Crystal City vs. Alexandria
               Crystal City    Carlyle        Footage Increase                           % Increase
 Occupiable
 Square Feet*  1,949,902       2,165,255**        215,353                                    11%

 * Occupiable square feet comprises rentable square footage available for offices, equipment, and furnishings.
 ** Includes 67,293 occupiable square feet that PTO leased in the townhouse offices that the City of Alexandria
    required the developer to construct in order to shield the parking garages from view.
Source: U.S. Government Lease for Real Property, GS-11B-LVA80671, June 1, 2000, and PTO personnel.

PTO has assisted GSA with project oversight

PTO took steps to keep the project on track, establishing in 1998, the Office of Space Acquisition
(OSA) to provide financial and technical assistance to GSA in the management of the project.
GSA has overall responsibility for PTO’s space consolidation project: prospectus and lease
preparation, financial oversight, property management, security, and indemnification against
vacancy and other project risks. However, PTO’s OSA played a significant role in keeping the
project close to budgetary guidelines. OSA has 22 employees and contractors who manage PTO’s
construction budget, review all change orders, and work with other PTO personnel to accomplish
the move. OSA has prepared various documents for the move to Carlyle, such as the USPTO
Consolidation Transition and Relocation Plan in November 2002, whic h outlines policies to be
implemented while the agency operates in dual locations.




 6
  A prospectus is a written justification for a proposed project and includes information on size, cost, location, and
 other project features.
 7
  PTO’s new facility is near the Carlyle House, which was built by John Carlyle as one of the original trustees of
 Alexandria, Virginia.
 8
     GAO was recently renamed the Government Accountability office.


                                                            2

     U.S. Department of Commerce                                           Final Report IPE-16268

     Office of Inspector General                                                  September 2004



                          OBJECTIVES, SCOPE, AND METHODOLOGY


The Office of Inspector General conducted this program evaluation in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency, and under
authority of the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980, as amended. We sought to determine how well PTO’s Office of Space
Acquisition has monitored building construction to date and is preparing for the transition to the
new buildings at the Carlyle site. It was not our purpose—nor did we attempt—to determine the
validity of the change orders reviewed and approved by GSA and PTO. Our methodology
included the following:

•	      Analysis. We evaluated (1) OSA’s budget and cost control measures for the construction, (2)
        the PTO/GSA team review process for change orders, and (3) OSA’s transition plans for
        moving PTO personnel and contractors.
•	      Interviews. We interviewed personnel from PTO, OSA, GSA, and the Department of
        Commerce including the following: (1) PTO’s Chief Financial Officer/Chief Administrative
        Officer (CFO/CAO) and other management officials; (2) OSA’s director, the manager
        responsible for the move, the overall move coordinator, and move coordinators for individual
        PTO offices; (3) GSA’s contracting officer, project manager, and project personnel; and (4)
        Commerce staff responsible for overseeing building construction.
•	      Literature review. We evaluated reports by PTO, GAO, GSA, and prior Commerce Office
        of Inspector General reports to identify concerns and issues raised during the project’s
        planning and construction phases.

We conducted our fieldwork at PTO headquarters in Crystal City, Virginia, from October 1, 2003,
to December 31, 2003, and obtained various project management and financial updates from PTO
through June 2004. We also walked through the new construction at the Carlyle site during
different stages of construction. At the conclusion of our revie w, we discussed our final
observations and recommendations with PTO’s CFO/CAO, and OSA personnel.




                                                   3

 U.S. Department of Commerce                                                             Final Report IPE-16268

 Office of Inspector General                                                                    September 2004



                                    OBSERVATIONS AND CONCLUSIONS


I. 	 PTO Has Provided Adequate Project Management and Financial Oversight of the
     Carlyle Construction Project, But Additional Costs Have Occurred

PTO and GSA have provided adequate project management and continuous financial oversight of
the Carlyle lease/construction project. While the project’s overall costs have increased from the
1995 budget of $223 million9 to $251.5 million,10 we note that most of this increase was due to
project delays related to matters beyond PTO’s control and new requirements, such as information
technology changes, building redesign to comply with the City of Alexandria’s requirements, and
security upgrades (see table 2 on page 5). The project delays were primarily due to protests and
lawsuits filed by PTO’s current landlord that delayed efforts to build PTO’s new facility (see
appendix). To help finance the cost increases, the agency obtained an additional $9.93 million in
its above standard build-out allowance from GSA in August 2004, which will be amortized over
20 years.

Given that PTO prepared its budget 9 years ago, such an increase in costs for a large construction
project is not unexpected and does not appear unreasonable. In addition, PTO may incur
additional costs, because GSA informed PTO that with the buildings being completed and
accepted earlier than expected, PTO should have to pay an additional $3.3 million in rent for fiscal
years 2004 and 2005.

PTO and GSA have closely reviewed project costs

The Under Secretary of Commerce for Intellectual Property and Director of the United States
Patent and Trademark Office agreed in a September 1998 memorandum of understanding (MOU)
that PTO would assist GSA in providing financial oversight of the project. OSA reviewed all
drawings and specifications for the buildings; suggested cost-cutting measures, such as
standardized floor plans and mass material buys; and—with GSA—reviewed all change orders and
budget items (GSA’s contracting officer ultimately approves all change orders). In addition,
PTO’s Offices of Corporate Planning and Finance ha ve captured and tracked all project costs,
providing another layer of review.

PTO’s planning and involvement in the oversight of the project began well before the signing of
the 1998 MOU. In 1995, PTO prepared and began managing its budget for building, transition,
and moving costs, and in 1998, began providing required quarterly reports to Congress via the
Senate Committee on Environment and Public Works.11 However, as project delays and other
unforeseen events occurred, PTO has had to adjust the initial budget of $223 million twice: (1) in
fiscal year 2002, the agency estimated that it would need an additional $37 million, for a total of

 9
   The original project budget of $223 million, created in 1995, includes $88 million in standard building costs 

 amortized in PTO’s rent plus $135 million of PTO costs.

 10
    Current estimated project costs of $251.5 million includes $98 million in standard building costs amortized in 

 PTO’s rent plus $153.5 million of PTO costs. 

 11
    Senate Report 105-235, June 26, 1998. 




                                                           4

        U.S. Department of Commerce                                              Final Report IPE-16268
        Office of Inspector General                                                     September 2004


   $260 million, and (2) in fiscal year 2003, PTO revised its budget downward to approximately $251
   million (see table 2).

Table 2: PTO Budget for Construction and Transition of Operations (Fiscal Years 2001-2006)
                                                          Original    Added        Added      Revised
                 PTO Costs (In Millions)                  Budget     Inflation     Other      Budget
                                                                      Costs        Costs
 1995 BUDGET COSTS
 Building Costs
   Standard Building Costs Amortized Over 20 Years         $88.000                  $9.930     $97.930
   Above -Standard Costs Paid by PTO                        29.000      4.000        2.000      35.000
 Move Costs                                                  5.371                   1.008       6.379
 Transition Costs
   Information Technology                                   15.309                  26.927      42.236
   Signage                                                   1.645                               1.645
   Dual Rent                                                 7.759      2.676                   10.435
  Dual Operations                                            1.586                   2.768       4.354
   Security                                                  5.031                               5.031
   Program Management                                        6.874      3.743                   10.617
   Furniture                                                61.924                  -42.157     19.767
   Inventory of Furniture                                      500                                 500
        Subtotal                                          $222.999    $10.419         $476    $233.894
 NEW BUDGET COSTS
   New Initiatives                                               0          0       14.212      14.212
   Townhouse Fit Out                                             0          0        2.488       2.488
   GSA Fee                                                       0          0          960         960
        Subtotal                                                 0          0       17.660      17.660
        Total Costs                                       $222.999    $10.419      $18.136    $251.554
Source: PTO Office of Space Acquisition

   The specific costs that comprised the additional $28.5 million in project costs were as follows:

   •	       GSA gave PTO authority to amortize $9,930,000 in costs from the developer in August
            2004 for above standard building costs (i.e., security upgrades, improved lighting and
            electrical systems, office doors and windows, upgraded carpeting, plastic and wood
            finishes and moldings, and special finishes). LCOR provided the $9.93 million that will be
            amortized over 20 years, along with the standard building costs of $88 million. GSA
            allows federal agencies to obtain funds when an agency cannot fund construction or lease
            costs in its yearly budget via a later lump sum payment or through amortization in GSA’s
            rent.
   •	       PTO will spend an additional $4 million for inflation costs due to project delays and $2
            million for additional electrical outlets to accommodate higher than originally planned
            numbers of employees and contractors at the Carlyle site.
   •	       PTO will spend an additional $1,008,000 to move existing furniture.



                                                     5

     U.S. Department of Commerce                                                            Final Report IPE-16268
     Office of Inspector General                                                                   September 2004


•	            PTO will spend $27 million for additional information technology costs in fiscal years
              2001 through 2006: new telecommunications switches, new data switches and relocation of
              existing switches, relocation of a data center and IT lab equipment, and unplanned IT
              construction changes to all five Carlyle buildings.
•	            PTO will spend $2,676,000 for additional rent at Crystal City due to project delays and
              higher than anticipated annual Crystal City rent increases.
•	            PTO will spend $2,768,000 for additional guard and shuttle services.
•	            PTO will spend $3,743,000 for additional project management due to project delays.
•	            PTO has saved $42,157,000 from reduced furniture purchases.
•	            PTO will spend $14,212,000 for new initiatives including space use changes, such as
              converting file space to office space; upgraded telecommunications and electrical
              improvements; security; computer workstations for the Public Search Facility; and pantry
              equipment.
•	            PTO will spend $2,488,000 to outfit the 67,293 occup iable square feet of townhouse office
              space leased at the Carlyle site.
•	            PTO spent $960,000 in fiscal year 2003 for fees to GSA.

PTO did not check with the appropriate Congressional committee before ceasing to submit
quarterly reports

Congress has been concerned about PTO’s move to Carlyle from the onset of the project. In June
1998, the Senate Committee on Environment and Public Works wanted assurances that costs
would be controlled. Thus, Senate Bill 2260 set spending caps12 of $88 million for standard
building costs and $29 million for above-standard build-out costs13 (see table 2 on page 5). The
committee expected PTO to establish cost control mechanisms to monitor every aspect of the
project and report to Congress quarterly on the project’s status. Despite the specificity of the
Senate bill, the final conference report did not establish any cost controls for PTO’s project,
deferring such caps until PTO requested project funding, at which time the need for caps could be
analyzed. However, Congress did not take these steps when funding was requested, and no caps
were established for PTO’s move to Carlyle. In addition, the agency informed us that it had
stopped sending quarterly status reports to the Senate Public Works Committee as of April 2001,
believing that the committee no longer had an interest in them.

According to PTO officials, they have informed the Senate and House Appropriations Committees
of additional project costs. Specifically, PTO officials told us that they had informed Senate and




     12
          Senate Bill 2260, Fiscal Year 1999 Commerce Justice State (CJS) Appropriations Bill, June 26, 1998.
     13
       The $88 million represents costs amortized costs over 20 years for a base building or “cold, dark shell;” the $29
     million represents costs expensed by PTO for improved lighting and electrical systems, office doors and windows,
     upgraded carpeting, plastic and wood finishes and moldings, and special finishes.




                                                               6

 U.S. Department of Commerce                                                Final Report IPE-16268

 Office of Inspector General                                                       September 2004



House Appropriations Committee personnel that PTO’s budget had changed for various reasons,
including (1) project delays from litigation that resulted in inflation of construction costs; (2) the
need to redesign aspects of the facility to accommodate the City of Alexandria’s requirements;
(3) enhanced security following September 11, 2001; (4) decreased furniture expenditures;
(5) changes in information technology costs; (6) the acquisition of the townhouse office space; and
(7) new initiatives including space use changes, such as the recapture of space originally planned
to house paper files, which allowed increased staff to be housed at the site. As shown in table 2,
both standard and above-standard costs have been expanded by $9.9 million and $6.0 million,
respectively. However, neither PTO nor GSA believed the $15.9 million increase was excessive,
given that PTO’s initial budget was prepared in 1995.

PTO and GSA need to finalize an occupancy agreement

For some time, PTO and GSA were unable to reach an agreement regarding Carlyle rental
payments for fiscal years 2004 and 2005. GSA officials stated that PTO owed an additional $6.0
million in rent for the two years because the Remsen and Randolph buildings were accepted ahead
of schedule, and the Madison and Knox buildings will likely be as well (see table 3). According to
GSA officials, PTO owed additional rent in fiscal years 2004 and 2005, based on the September
1998 MOU with PTO, while PTO disagreed and said that it did not owe additional rent, based on
language in the June 2000 lease agreement between GSA and LCOR.

 Table 3: Comparison of Lease and Actual Building Acceptance Dates (As of 9/8/04)
                    Lease Acceptance Dates            Actual Acceptance Dates
   Remsen Building              12/03/03                               10/17/03
   Jefferson Building           12/08/03                               12/15/03
   Randolph Building            11/05/04                               09/07/04
   Madison Building             11/24/04                               09/24/04*
   Knox Building                04/01/05                               01/20/05*
   *Planned acceptance dates
  Source: OSA personnel

GSA stated that its September 1998 MOU with PTO clearly states that PTO becomes liable for
rent when GSA accepts each building, and GSA contends that PTO knew about the early
acceptance dates for Randolph, Madison, and Knox two years in advance. While PTO stated that
it did not know that the Carlyle buildings would be delivered early two years in advance, it stated
that it has known for some time that the Carlyle complex was delivering ahead of schedule.

On September 20, 2004, PTO reached an agreement with GSA to pay it $3.3 million to settle the
controversy between the two agencies regarding their respective financial obligations for project
rent. This amount is based on the lost Crystal City rent that GSA had expected to collect from
PTO had the Carlyle buildings been delivered on schedule.




                                                   7

    U.S. Department of Commerce                                                Final Report IPE-16268
    Office of Inspector General                                                       September 2004


While GSA and PTO have been working to resolve the rent issue, as of September 30, 2004, the
standard occupancy agreement between GSA and PTO has not been completed. The Federal
Management Regulation requires occupancy agreements for all GSA customer space
assignments.14 The agreement is a complete, concise statement of the customer agency’s financial
terms and conditions for occupying GSA-controlled space, and is signed by both parties. The
agreement (1) minimizes exposure to future unknown costs for both GSA and customer age ncies
and (2) stabilizes payments to the extent possible. The agreement specifically describes the
following:

•           Base rent and lease term.
•           Estimated lump sum payments.
•           Operating expenses and escalations.
•           Estimated cost and scope of additional or reduced GS A services, if applicable.
•           Amortization rates for initial space alterations.
•           Exact cancellation/termination procedures.
•           Exact square footage.
•           Any additional rights and liabilities of both parties.

We found that the September 1998 MOU between PTO and GSA outlined the general terms and
conditions for acquiring and occupying the leased space in Carlyle, and stipulated that these
requirements would transfer to an occupancy agreement that the two agencies were to sign prior to
the lease award to LCOR in June 2000. The terms, conditions, and basis for determining rent
obligations would be specified, as would PTO’s and GSA’s obligations for management and
operation of the new buildings.

Neither agency’s representatives could explain why the occupancy agreement had not been signed
during the required timeframe, but cited their continuing differences over PTO’s rent obligations
as the reason why they cannot sign it at present. We recommend that PTO reach an agreement
with GSA by preparing and signing an occupancy agreement documenting the financial and other
terms and conditions for occupying the Carlyle space and PTO’s and GSA’s obligations and
responsibilities as soon as possible.



In its reply to our draft report, PTO provided additional information concerning the settlement of
the rent dispute with GSA, which has been incorporated into the report. According to PTO,
because the firm fixed rent start date that GSA established in the lease with LCOR was based on
the mid-point of the lease delivery dates, GSA incurs no additional rental liability as a result of the
early delivery of Carlyle space. However, PTO did agree that the early delivery, and its
consequential acceleration of the relocation, does mean that GSA would collect less rent from PTO

    14
         Federal Management Regulation 102-85.45.




                                                      8

 U.S. Department of Commerce                                              Final Report IPE-16268
 Office of Inspector General                                                     September 2004


in Crystal City than had been projected. Because PTO believes doing so complies with the spirit
of the 1998 MOU, it stated that it agreed to reimburse GSA for $3.3 million in lost Crystal City
rent that GSA had expected to collect if the Alexandria buildings had been delivered on schedule.

In its response, PTO also indicated that it will proceed to enter into an occupancy agreement with
GSA as expeditiously as possible. However, PTO stated that GSA has not yet provided PTO with
a revised draft occupancy agreement as of September 30, 2004.




                                                 9

 U.S. Department of Commerce                                                          Final Report IPE-16268
 Office of Inspector General                                                                 September 2004


II. PTO Recently Completed Plans for Its Final Moves to Alexandria, But Space Planning
    for Future Growth Is Incomplete

PTO sufficiently planned and accomplished its move of 2,093 employees to the Remsen and
Jefferson buildings. It also recently identified what employees will be housed at the rest of its new
Carlyle site in Alexandria, provided GSA with 120-day notice of leases in Crystal City that it
needs to terminate prior to its next moves to Carlyle, and has begun meetings between its move
coordinators and employees. However, even with the upcoming moves to the Madison, Randolph,
and Knox buildings, and the east and west townhouses (see table 3 on page 7), the Carlyle site can
only accommodate 8,000 of PTO’s 8,800 employees and contractors.15 As a result, PTO has to
obtain additional space in fiscal years 2005 and 2006 through a prospectus with GSA or other
means to handle current staff overflow and accommodate future needs.

Planning for Remsen and Jefferson moves was comprehensive

We found that the move by OSA of 2,093 employees to the Remsen and Jefferson buildings was
well planned and organized, with the help of many PTO employees, whose experience moving
among facilities in Crystal City helped OSA execute a smooth relocation to Carlyle. In preparing
for these first moves,16 OSA (1) designated an overall move coordinator to oversee the relocation
and several subordinate coordinators to work with personnel of the units moving to the new
facility; (2) hired moving companies early (in fiscal year 2003 to ensure funding availability); (3)
analyzed its Crystal City leases to determine—based on lease expiration dates—which offices
would be most cost-effective to move first; (4) prepared stacking plans of employees assigned to
specific buildings; and (5) established a help desk and kiosks to answer employees’ questions.

Plans for moves to next three buildings have been completed

PTO has achieved key milestones by identifying what additional employees will be moving to
Carlyle, providing 120-day notice to GSA of leases it intends to terminate, and beginning
coordination meetings between move coordinators and employees. In late April 2004, PTO
management approved the stacking plan that outlines which employees will move to the remaining
three buildings and the townhouses. In early May 2004, the agency gave GSA the 120-day notice
of the leases it wants to terminate in Crystal City. Table 4 outlines PTO’s leases, with PTO having
already terminated approximately 700,000 square feet of space in Crystal City as of September
2004. If GSA accepts the Knox building on January 20, 2005, all of PTO’s leases, except for the
South and North Tower buildings in Crystal City, will be terminated.

The Randolph building is ready for occupancy as of September 7, 2004, and the Madison building
is scheduled for initial occupancy in late September 2004. As previously noted, the anticipated


 15
   When the project budget was established in 1995, the facility planned to house 7,108 employees and contractors.
 16
   First move—Remsen and Jefferson in December 2003 and January 2004, respectively; second move— Madison
 and Randolph in September and October 2004, respectively; third move—Knox in January 2005.




                                                        10

 U.S. Department of Commerce                                               Final Report IPE-16268
 Office of Inspector General                                                      September 2004

  Table 4: PTO Leases at Crystal City
                                        Original       Original        Revised        Current
    Crystal City Buildings             Expiration   Rentable Square   Expiration      Rentable
                                         Date            Feet           Date         Square Feet
 Crystal Plaza 4 – Plaza
 Shops                                  12/18/01              1,260   12/18/06                1,260
 Crystal Park 2                         01/12/03             66,258   01/12/06               66,258
 Crystal Square 5                       06/30/03              7,280   06/30/05                7,280
 Crystal Plaza 1                        03/31/04              4,683   03/31/05                4,683
 Crystal Park 3                         04/24/04             24,076   04/26/05               24,076
 Crystal Park 2                         05/14/04             77,390   05/14/05               77,390
 Crystal Gateway 2                      08/31/04             38,401   08/31/04               38,401
 Crystal Plaza 2, 3, 4, ¾               09/30/04            677,177   09/30/04              227,204
 Crystal Square 2                       10/06/04              2,411   10/06/04                2,411
 Crystal Gateway 4                      10/31/04             33,620   04/30/05               33,620
 Crystal Park 5                         11/02/04            194,194   05/31/05              194,194
 Crystal Park 3                         11/22/04             67,261   11/22/04               67,261
 Crystal Mall 1                         11/26/04            179,970 Space Released                0
 Crystal Plaza 6                        11/30/04             31,225   11/30/04               31,225
 Crystal Plaza 6                        12/07/04              2,835   12/07/04                2,835
 Crystal Park 1                         12/15/04             12,796   12/15/04               12,796
 Crystal Square 4                       12/18/04             28,167   12/18/04               28,167
 Crystal Park 2                         12/19/04             38,506   12/19/04               38,506
 Crystal Park 1                         02/07/05             82,063   02/07/05               82,063
 Crystal Park 2                         02/11/05             65,140   02/11/05               65,140
 Crystal Park 1                         03/16/05             14,028   03/16/05               14,028
 Crystal Park 1                         05/31/05             82,176   05/31/05               63,666
 North Tower                            06/17/05             47,419   06/17/05               13,568
 Crystal Park 2                         09/30/05            127,309   09/30/05              127,309
 Crystal Park 1                         11/03/05              8,692   11/03/05                8,692
 Crystal Park 1                         10/05/05              8,750   10/05/05                8,750
 Crystal Park 1                         12/14/05             22,402   12/14/05               22,402
 Crystal Park 1                         12/21/05             11,658   12/21/05               11,658
 Crystal Park 3                         02/19/06              8,601   02/19/06                8,601
 Crystal Park 3                         02/19/06              7,578   02/19/06                7,578
 Crystal Park 2                         06/06/06             23,165   06/06/06               23,165
 South Tower                            03/04/07            156,943   03/04/07              156,943
 North Tower                            04/19/07             19,787   04/19/07                  915
 (Changes shown in yellow)                                2,173,221                       1,472,045
 Source: Office of Space Acquisition


September completion dates for Randolph and Madison are ahead of schedule. However, PTO
does not plan to occupy the Ra ndolph building before October 1, 2004. September is the busiest
month of the fiscal year for examiners as they attempt to meet production goals and attain awards.
PTO was concerned that a move before the end of the fiscal year could seriously affect examiner




                                                     11
 U.S. Department of Commerce                                                              Final Report IPE-16268
 Office of Inspector General                                                                     September 2004


production. PTO will move examiners in early October to ensure all work has been completed for
the fiscal year.

PTO must find additional space for current and future employees

PTO plans to move 5,257 employees and contractors to the Randolph, Madison, and Knox
buildings and the townhouses between September 2004 and March 2005. By March 2005, PTO
will have approximately 7,350 employees and contractors at its new site, which can accommodate
8,000 employees and contractors. PTO plans to save space for approximately 650 new employees
in fiscal year 2005, assuming its 2003 Fee Modernization Bill will be passed by Congress.17
Currently, PTO has approximately 8,800 employees and contractors. For its remaining 1,450
employees and contractors (8,800 – 7,350), PTO will house 1,350 employees and contractors in
the South and North Tower buildings in Crystal City, but will need space in February 2005 for
approximately 100 employees from PTO’s Office of Finance. The leases for these 100 employees
expire in February and May 2005.

PTO’s strategy for obtaining more space to meet its current and future needs is two-fold. First,
PTO is searching for space for its Office of Finance by February 2005. PTO planned to find
additional space through GSA’s Advanced Acquisition Program, which awards leases by matching
agency requirements with GSA’s inventory of leases previously negotiated between GSA and
leasing companies. On May 28, 2004, PTO requested that GSA find additional space within 500
feet of the Carlyle site for its Office of Finance. PTO provided a preliminary Program of
Requirements (POR), which is a detailed space plan and a build-out specification for future space,
in its letter to GSA, and planned to submit a final POR to GSA. GSA recently stated that it did not
have any space in its inventory to meet PTO’s specific requirements. As a result, GSA began
procuring additional space for PTO in July 2004, leaving only eight months to complete a typical
12-month procurement. GSA could be forced to extend at least one lease used by PTO’s Office of
Finance in Crystal City if the procurement is not completed by February 2005.

Second, PTO stated that it would need additional space in fiscal year 2006 when it plans to hire
another 650 employees, assuming Congress passes PTO’s fee bill.18 Most likely, GSA will have to
submit a new prospectus to Congress, because PTO’s additional space would exceed GSA’s
threshold of $2.3 million in annual rent. We recommend that PTO complete its POR for its future
space requirements as soon as possible and submit them to GSA to begin the space acquisition
process, including prospectus, if necessary.




 17
      H.R. 1561, April 2, 2003.

 18
      For fiscal years 2005 and 2006, PTO plans to hire 1,600 examiners but net only 1,300 examiners due to attrition. 





                                                            12

 U.S. Department of Commerce                                                 Final Report IPE-16268
 Office of Inspector General                                                        September 2004


In its response to our draft report, PTO agreed that it is important to develop strategies for meeting
its increased future space requirements. In that regard, PTO stated that it has already begun work
on the applicable Program(s) of Requirements.




                                                   13

U.S. Department of Commerce                                           Final Report IPE-16268

Office of Inspector General                                                  September 2004



                                  RECOMMENDATIONS


We recommend that the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office take the following actions:

   1.	 Reach an agreement with the General Services Administration by preparing and signing
       an occupancy agreement documenting the financial and other terms and conditions for
       occupying the Carlyle space and PTO’s and GSA’s obligations and responsibilities as
       soon as possible (see page 4).

   2.	 Complete the Program of Requirement for its future space requirements as soon as
       possible and submit them to the General Services Administration to begin the space
       acquisition process, including prospectus, if necessary (see page 10).




                                              14

 U.S. Department of Commerce                                                     Final Report IPE-16268

 Office of Inspector General                                                            September 2004



                                              APPENDICES

 APPENDIX 1. Key Milestones for PTO’s Move from Crystal City to Alexandria

                          Milestones                                                         Date
   �•  GSA   and PTO begin work on the Carlyle prospectus                              November 1989
   �•  GSA and PTO submit prospectus to OMB                                            Fall 1991
   �•  OMB approves prospectus                                                         May 1995
   �•  Senate approves prospectus                                                      October 1995
   �•  House approves prospectus                                                       November 1995
   �•  PTO issues Solicitation for Offers                                              June 1996
   �•  PTO receives Phase 1 proposals                                                  December 1996
   �•  PTO landlord files bid protest with GAO                                         June 1997
   �•  GAO rejects bid protest from PTO landlord                                       September 1997
   �•  GSA and PTO sign Memorandum of Understanding                                    September 1998
   �•  PTO landlord files protest with District Court of Virginia                      December 1998
   �•  PTO landlord files protest with the District Court of D.C.                      March 1999
   �•  GSA selects LCOR and Carlyle site                                               June 1999
   �•  District Court of Virginia dismisses protest filed by PTO landlord              July 1999
   �•  Alexandria Planning Commission approves plans for Carlyle complex               March 2000
   �•  District Court of D.C. dismisses lawsuit filed by PTO landlord                  June 2000
                                       th
   �•  U.S. Court of Appeals for the 4 Circuit affirms ruling by District Court of Va. June 2000
   �•  District Court of D.C. denies motion for reconsideration from PTO landlord      June 2000
   �•  GSA signs lease for new PTO facility                                            June 2000
   �•  U.S. Court of Appeals for D.C. affirms June ruling by District Court of D.C.    December 2000
   �•  PTO holds official groundbreaking                                               January 2001
   �•  City of Alexandria approves building design                                     July 2001
   �•  LCOR breaks ground at Carlyle site                                              November 2001
   �•  PTO opens Remsen building                                                       December 2003
   �•  PTO opens Jefferson building                                                    January 2004
   �•  PTO plans to open Randolph building                                             September 2004
   �•  PTO plans to open Madison building                                              September 2004
   �•  PTO plans to open Knox building                                                 January 2005

Source: Chronology of PTO Space Consolidation, October 19, 2001, and PTO Personnel




                                                      15

U.S. Department of Commerce                   Final Report IPE-16268
Office of Inspector General                          September 2004


APPENDIX 2. Agency Response to Draft Report




                                       16

U.S. Department of Commerce         Final Report IPE-16268

Office of Inspector General                September 2004





                              17

U.S. Department of Commerce         Final Report IPE-16268

Office of Inspector General                September 2004





                              18

U.S. DEPARTMENT OF COMMERCE
       Office of Inspector General

          Room 7898C, HCHB

 14th Street & Constitution Avenue, NW

         Washington, DC 20230


           Internet Web site:


           www.oig.doc.gov

